HHS/OIG, Audit -"Medicaid Payments For School-Based Health Services Fall River, Massachusetts - July 1999 Through June 2000,"(A-01-02-00005)
Department
of Health and Human Services
"Medicaid Payments For School-Based Health Services Fall River, Massachusetts - July 1999 Through June 2000," (A-01-02-00005)
November 14, 2002
Complete
Text of Report is available in PDF format (1.14 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether costs claimed for school-based health services by the Fall River
Public Schools through the Commonwealth of Massachusetts were reasonable, allowable and adequately supported in accordance
with the terms of the State Medicaid Plan and applicable federal regulations.  The audit period included Medicaid
payments made during the period July 1, 1999 through June 30, 2000.  We found that, based on reviewing randomly selected
months of payments, the Fall River Public Schools inappropriately claimed the cost of school-based health services when
the student was absent, the student did not have a current IEP, and the Fall River Public Schools did not maintain sufficient
documentation.  As a result, we estimate that the Fall River Public Schools were overpaid at least $25,941 .  In
addition, the Fall River Public Schools billed the Medicaid program for $1,707 (federal share) on day when the school was
not open.  We recommend that Fall River Public Schools (1) develop and/or improve procedures to ensure that Medicaid
billings are based on accurate attendance records, students have a current IEP, service providers document services delivered,
and days for which the school was open; and (2) refund amounts that were inappropriately paid by the Medicaid program.   In
their response to the audit report, Fall River Public Schools officials generally agreed with the procedural recommendations
related to establishing policies and procedures regarding Medicaid billing.